CERTIFICATE OF SERVICE
NO. TBD
Jason Isaiah Robinson
Petitioner(s)
v.
Lorie Davis
Respondent(s)
__________
STATE OF MASSACHUSETTS )
COUNTY OF NORFOLK
) SS.:
Being duly sworn, I depose and say under penalty of perjury:
1. That I am over the age of 18 years and am not a party to this action. I am an employee of
the Supreme Court Press, the preparer of the document, with mailing address at 1089 Commonwealth
Avenue, Suite 283, Boston, MA 02215.
2. On the undersigned date, I served the parties in the above captioned matter with the JASON
ISAIAH ROBINSON PETITION FOR WRIT OF CERTIORARI, by mailing three (3) true and correct copies of
the same by USPS Priority mail, postage prepaid for delivery to the following addresses:
Kyle D. Hawkin
Texas Solicitor General
Agency #: 302, 209 West 14th St. (78701)
P.O. Box 12548
Austin, TX 78711-2548
(512) 936-1700
Counsel for Lorie Davis (State of Texas)

Lucas DeDeus

December 16, 2019
SCP Tracking: Frey-1411 West Avenue, Suite 200-Cover White

